SIDLEY AUSTIN LLP
ONE SOUTH DEARBORN STREET
CHICAGO, IL 60603
+1 312 853 7000
+1 312 853 7036 FAX
RHOCHMAN@SIDLEY.COM
AMERICA • ASIA PACIFIC • EUROPE

+1 312 853 2936

October 14, 2020

By E-Filing
The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Minerva Surgical, Inc. v. Hologic, Inc., et al., No. 20-440

Dear Mr. Harris:
Pursuant to Rule 37.2 of the Rules of this Court, counsel for petitioner Minerva Surgical,
Inc. consents to the filing of any amicus curiae brief in support of either party or of neither party
in connection with the petition for a writ of certiorari in the above-captioned case.
Sincerely,
/s/ Robert N. Hochman
Robert N. Hochman
Counsel of Record for Petitioner
cc:

Matthew Wolf, Marc A. Cohn, and Jennifer Sklenar
Arnold & Porter Kaye Scholer LLP

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

